Case No. 20-337
Supreme Court of the United States
ROSEMARY ANN LYNN,
Petitioner,
v.
ANDREW GEORGE BROWN, III, et al.
On Petition for Writ of Certiorari
PROOF OF SERVICE
On behalf of Andrew George Brown III; Trust Company of
Oklahoma and its employees Lesa Creveling, Melissa
Taylor and Emily Crain; Purview Life and its employees
Mary Jean Bagwell-Hendershott and Susan Boyd;
Kimberly Biedler Schutz; Randall Allen Gill; and Robyn
Owens

Randall A. Gill, Oklahoma Bar Assoc. #10309
2512 East 21st Street
Tulsa, Oklahoma 74114-1706
(918) 747-1958
randall@gillfirm.law

PROOF OF SERVICE
Pursuant to Rule 29, I hereby certify that on the 14th day of October 2020, a
true and correct copy of the above and foregoing instrument was mailed by first class
mail, postage prepaid thereon, to:
Rosemary Ann Lynn, Pro Se
PO Box 701432
Tulsa, OK 74170
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Respectfully submitted,

s/Randall A. Gill
Randall A. Gill, Oklahoma Bar Assoc. #10309
2512 East 21st Street
Tulsa, Oklahoma 74114-1706
Phone: (918) 747-1958
Email: randall@gillfirm.law
Attorney for Andrew George Brown III; Trust
Company of Oklahoma and its employees Lesa
Creveling, Melissa Taylor and Emily Crain;
Purview Life and its employees Mary Jean
Bagwell-Hendershott and Susan Boyd; Kimberly
Biedler Schutz; Randall Allen Gill; and Robyn
Owens

